<html>
<title> - ASSESSING U.S. FOREIGN POLICY PRIORITIES AND NEEDS AMIDST ECONOMIC CHALLENGES IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







              ASSESSING U.S. FOREIGN POLICY PRIORITIES AND
          NEEDS AMIDST ECONOMIC CHALLENGES IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2012

                               __________

                           Serial No. 112-147

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-194PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Jeffrey D. Feltman, Assistant Secretary of State, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     6
The Honorable Mara Rudman, Assistant Administrator for the Middle 
  East Bureau, U.S. Agency for International Development.........    21
Mr. Mark Ward, Deputy Special Coordinator for Middle East 
  Transitions, U.S. Department of State..........................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jeffrey D. Feltman: Prepared statement.............     9
The Honorable Mara Rudman: Prepared statement....................    23

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    50

 
  ASSESSING U.S. FOREIGN POLICY PRIORITIES AND NEEDS AMIDST ECONOMIC 
                     CHALLENGES IN THE MIDDLE EAST

                              ----------                              


                         WEDNESDAY, MAY 9, 2012

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. All right, we will go ahead and get started 
here. The subcommittee will come to order. Good afternoon. I 
want to welcome all of my colleagues, those here and not here, 
to this hearing of the Subcommittee on the Middle East and 
South Asia.
    The purpose of this hearing is to follow up the recent full 
committee hearing with the Secretary of State and the USAID 
Administrator. Today we will focus on the Middle East component 
of the Fiscal Year 2013 budget, and next week we will hear from 
administration officials on the South Asia component.
    Just over a year ago, the subcommittee heard testimony on 
the Fiscal Year 2012 budget. Although many of the themes that I 
am sure we will discuss are similar, the context could not be 
more different. A year ago, I was cautiously optimistic that 
the so-called Arab Spring might usher democracy and human 
rights into a region where both have been exceptions rather 
than the rule. Now 1 year later, the picture looks very 
different. The Muslim Brotherhood is on the verge of holding 
virtually complete control of the Egyptian civilian government, 
Syria is collapsing into a civil war, potentially, in which 
nearly 12,000 people have already perished and there seems to 
be no end in sight. The regime in Tehran has all but quashed 
all popular opposition and continues to advance in its quest 
for a nuclear weapons capability. Israelis and Palestinians do 
not even appear to be close to resuming negotiations despite 
repeated Israeli overtures, and Iraq, which had looked 
surprisingly stable, is embroiled in a political crisis which, 
if not checked, has the potential to sink the entire country 
back into widespread sectarian conflict. We certainly hope that 
is not happening, pray that that does not happen, but that 
could very well be what we have facing us. And on top of that, 
international institutions like the United Nations have ground 
to a halt due to foot-dragging by countries like Russia and 
China who continue to shirk their own responsibilities as 
members of the international community.
    But while the region continues to change, U.S. core 
national security interests have not. Maintaining shipping 
lanes, securing energy for the world economy, ensuring regional 
stability and combating terrorism still remain critical 
priorities. Collectively, the current situation poses one of 
the most serious challenges in the Middle East that the U.S. 
has faced in decades. And while I am sure that the 
administration understands the nature of the challenges, I am 
not so sure that its policies are the most effective in 
addressing them.
    The flagship program in the Fiscal Year 2013 budget is the 
proposed Middle East and North African Incentive Fund, which 
despite its $770 million price tag and very broad authorities, 
appears to share the same core mechanism as many other 
assistance programs. Many assistance programs are intended to 
incentivize countries to reform. Very few of them cost nearly 
$1 billion and require notwithstanding authority. Furthermore, 
I fear this fund risks reinforcing a chronic bad behavior in 
the implementation of our foreign assistance, substituting 
money for thoughtful policy. Reflexively throwing taxpayer 
dollars at problems is not effective policy, and I fear the 
lack of details about how this fund will operate as well as the 
very broad authorities requested, make it more likely that the 
money will at best be wasted and will at worst enable hasty and 
reckless policy.
    I have my doubts about our country-specific policies as 
well. The administration's current policy in Syria relies on 
sanctions and diplomacy, and while the sanctions that have been 
implemented by the U.S. and its allies around the world are 
certainly having an effect, I fear they will not achieve the 
stated goal to actually bring about the removal of Assad from 
power. Similarly, some today are looking to Kofi Annan's six-
point plan for Syria and the establishment of a U.N. observer 
mission with optimism. I am afraid that I do not share this 
optimism, and I hope our witnesses here today will discuss what 
next steps the administration is planning if, and likely when, 
the current diplomacy fails.
    In Eqypt, the administration, Egyptians, or both do not 
seem to have grasped the seriousness of the situation. The 
December 29th, 2011 raid on civil society NGOs calls into 
question the Government of Egypt's commitment to the principles 
of democratic governance. And although it may not have intended 
to do so, the administration's decision on March 23rd to waive 
a certification on Egyptian democratic progress prior to the 
obligation of military aid sent the wrong message to parties 
throughout the region that when push comes to shove, our money 
will keep flowing despite whatever preexisting conditions we 
may have set. Furthermore, a near obsessional fear of the 
perceived foreign intervention among Egyptians limits what kind 
of assistance may be possible going forward even with the best 
bilateral relationship.
    Decisions about U.S. foreign assistance must ultimately be 
shaped by the choices and policies made by regional 
governments. We have an interest in strongly supporting 
democratic governments that respect the rights of their 
citizens and rule of law that foster greater economic 
opportunity and that observe international obligations. I fear, 
however, that if the current trajectory of the region continues 
unchanged, our assistance programs to many of the countries in 
question will have to be reevaluated.
    And at this time, Mr. Ackerman, I don't know if you can get 
in your talk in about 3 or 4 minutes, probably not. If not, 
perhaps we should go ahead and adjourn, go to the floor and 
come back. So we will go ahead and do that then at this point, 
so we will be back, and maybe a little less than \1/2\ hour 
since we used up some of the 20 minutes in this vote. So we are 
in recess for a short period of time.
    [Recess.]
    Mr. Chabot. The committee will come back to order. It has 
been brought to my attention that we have a number of 
distinguished high-ranking officers from around the world who 
are with us here this afternoon, currently at the War College, 
and on behalf of the subcommittee we would like to ask them to 
perhaps stand, and we would like to welcome them to our 
committee and thank them for their service. Thank you very 
much.
    [Applause]
    Mr. Chabot. Thank you very much. And at this time, by 
popular demand it has been suggested that I should give my 
opening statement again--just kidding. So we will at this point 
turn to the ranking member of the committee, the distinguished 
gentleman from New York, Mr. Gary Ackerman, to give his opening 
statement.
    Mr. Ackerman. I think there has been an equal demand that I 
not make any statement. We will proceed as we usually do. Thank 
you, Mr. Chairman.
    The chairman organized today's hearing to discuss our 
priorities in foreign assistance in the Middle East in the 
coming year. I will tell you what the first priority ought to 
be, meeting the President's request for increased foreign 
assistance in the Middle East in the coming year.
    At a time when the entire region is in the midst of a 
generational upheaval and with the threat of an Iranian nuclear 
weapons capability drawing nearer, and it absolutely must be 
stopped, now is not the time to stuff our hands in our pockets 
and say that we have been doing enough. Nothing can be more 
short-sighted and contrary to our national security interests 
in the region than to draw back on our commitments or, worse, 
pull back, disengage and leave the region's fate to be 
determined wholly by others.
    In the current fiscal year, U.S. foreign assistance will 
total an estimated $37.7 billion, or 1.0 percent of the total 
Federal budget. By comparison, defense spending will exceed 
$646 billion. It is not a question of either/or, but one of 
scale. Diplomacy and foreign assistance is every bit as 
critical, and usually much more cost effective at protecting 
and advancing American interests. To be clear, foreign 
assistance needs to be understood as a vital element of our 
overall national strategy, not a soft-headed but compulsory 
form of charity that we impose upon our taxpayers.
    We have a foreign operations budget for the same reason 
that we have a Marine Corps. It proactively helps to protect 
America and it advances our vital interests and national 
security by dealing with problems over there before they become 
problems over here. September 11th should have proved once and 
for all that even if we don't visit bad neighborhoods, and 
especially if we don't visit bad neighborhoods, they will visit 
us.
    For many years, the Near East has been America's top 
recipient region. In Fiscal Year 2012, we will spend an 
estimated $8 billion and, wisely, the Obama administration has 
requested a $1-billion-plus-up for the region in Fiscal Year 
2013. While a significant increase, the justification is 
obvious. The region in which we have vital political, economic 
and military interests is in the midst of a metamorphosis, and 
we continue to have vital allies who are counting on us to 
fulfill our commitments to their security.
    So now in addition to our traditional objectives of 
promoting peace, development, and the spread of democracy, 
human rights and liberal values, we have a host of specific 
short-term challenges stemming from the remarkable and radical 
changes that have been transforming the region. There is a 
struggle of the Syrian people to free themselves from the Assad 
dictatorship. This change when it succeeds, and I believe we 
must facilitate that success to our utmost, will depend on the 
strategic architecture of the region and deliver a fatal wound 
to Iranian dreams of hegemony.
    Egypt, Libya, Tunisia and Yemen are all struggling to 
steady themselves and put new governments, which we certainly 
hope will be democratic in outlook as well as origin, on solid 
foundations, all while addressing the truly exigent problems 
within. On the Arabian peninsula and in the Levant, radical, 
violent Islamists are seeking to exploit the chaos while ever 
seeking new havens from which they can plan attacks including 
attacks on the United States. Our commitment to Iraq is 
ongoing, and our support for Jordan and Lebanon and Morocco is 
as well.
    Finally, the bedrock commitment that we have made to 
Israel, which remains a target for all radical and malevolent 
forces in the region must be sustained and strengthened. At a 
time when Arabs are fighting and struggling for democracy and 
the fruits of limited government and rule of law, we must 
continue our support for the one and only truly shining example 
of these things in the entire region.
    While I am bitterly disappointed with the absurd decision 
by President Abbas last year to seek statehood from the U.N., 
which can't give it, while refusing to negotiate with Israel, 
which can, I continue to believe that it is in the interest of 
both the United States and the State of Israel to continue our 
assistance to the Palestinian Authority. The transformations 
wrought by Prime Minister Fayad in terms of law and order, 
economic growth, and the maturation of government operations 
are nothing short of remarkable, and while they absolutely 
could not have happened without the support of the United 
States.
    While the two sides remain at odds presently, I remain 
convinced that Israel will one day be the midwife of a new 
Palestinian state for the simple reason that its own vital 
interests in remaining both a Jewish and a democratic state 
will compel it to do so. When that day comes, our efforts to 
support the Palestinian state-building enterprise will yield 
remarkable dividends. Instead of a failed state or a terror 
state unable to sustain itself, Israel will have another 
neighbor able to fulfill its obligations both from without and 
within.
    The Middle East we know for so long is dead, and a new 
region is being born. Like many new born, we do not know what 
will become of it and, in truth, it is not for us to determine. 
What we can and should do is to help within our means, offer 
counsel and assistance to those who seek it, and remain 
stalwart in our protection of our partners, our allies and our 
friends.
    Mr. Chabot. Thank you very much, Mr. Ackerman. I appreciate 
it. At this time, members, if they would so choose will have 1 
minute to make an opening statement if they would like to. We 
will first recognize the gentleman from Nebraska, Mr. 
Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
important hearing today. Assistant Secretary Feltman--
Ambassador, Mr. Ambassador, good to see you. Ms. Rudman, thank 
you for joining us today, as well as you, Mr. Ward. I know we 
are going to discuss our efforts as the U.S. Government toward 
meaningful engagement in the Middle East during this important 
time of transition with all of its uncertainties and 
difficulties.
    I would like to state that briefly my priorities for the 
region are threefold and intertwined. First, it is to prevent 
widescale conflict, protect Israel in view of the apocalyptic 
threats levied against its very existence, and third is to help 
promote just civil societies and governance structures 
throughout the region that respect and reflect the needs of 
local populations struggling to realize their basic human 
rights.
    So there is much to unpack in that brief statement, and I 
will look forward to your commentary today and the follow-up 
questions. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much. The gentleman from the 
Commonwealth of Virginia, Mr. Connolly, is recognized for 1 
minute.
    Mr. Connolly. Thank you, Mr. Chairman, and I want to thank 
our panel for being here, and you for holding this hearing. And 
I want to applaud you for your opening statement, much of which 
I certainly agree with, and the caveats contained therein 
definitely worthy of holding in mind.
    However, I would respectfully suggest it is premature--I 
just got back from Egypt--it is premature to pass judgment on 
events that are unfolding in Egypt. Some make us highly 
uncomfortable absolutely, and they should. But we need to give 
this a little bit of time and we need to tread softly lest we 
unwittingly create outcomes we wish to avoid.
    And then secondly, the chairman rightfully listed, 
enumerated many, many interests the United States has in this 
region and I agree with all of them. But I say to the chairman 
and my colleagues especially on the other side of the aisle, 
the answer is not to disengage because we have these concerns. 
The answer is to continue to engage and invest, however 
difficult the terrain. That is what a great power does.
    And so I look forward to this hearing, and I look forward 
to having the opportunity to further examine the issues the 
chairman so ably laid out for us.
    Mr. Chabot. Thank you very much. I believe Mr. Bilirakis, 
you're not--okay. Thank you very much.
    And I believe next was Mr. Chandler, the gentleman from 
Kentucky?
    Mr. Chandler. I pass, Mr. Chairman.
    Mr. Chabot. And who is also from a Commonwealth.
    And Ms. Schwartz, Pennsylvania, were you interested? Pass? 
Okay.
    Mr. Murphy from Connecticut?
    And finally, last but not least, Mr. Higgins? Okay, 
excellent.
    Well, then we can go ahead and introduce our panel here 
this afternoon, and we have a very distinguished panel. We 
appreciate them being here. I will start with Ambassador 
Jeffrey Feltman who was sworn in as Assistant Secretary of 
State for Near Eastern Affairs on August 18th, 2009. A career 
member of the Foreign Service since January 1986, Ambassador 
Feltman previously served as Principal Deputy Assistant 
Secretary in the Bureau of Near Eastern Affairs, and from July 
2004 to January 2008 he served as the U.S. Ambassador to 
Lebanon. Prior to his assignment in Lebanon, he served in Iraq, 
Israel and Tunisia. And we welcome you here this afternoon, Mr. 
Ambassador.
    Our next witness will be Mara Rudman. And prior to becoming 
Assistant Administrator for the Middle East at USAID, Mara 
Rudman was a deputy envoy and chief of staff for the Office of 
the Special Envoy for Middle East Peace. She served as deputy 
assistant to the President and executive secretary to the 
National Security Council under President Obama from January 
through May 2009, and as a deputy national security advisor and 
National Security Council chief of staff to President Clinton 
from 1999 to 2001. Earlier in her career she served as chief 
counsel to the House Foreign Affairs Committee under Chairman 
Lee Hamilton. Thank you very much for being here.
    And finally, Mark Ward is a career minister in the U.S. 
Senior Foreign Service, and currently serves as the Deputy 
Special Coordinator in the Office of Middle East Transition at 
the U.S. Department of State. From July 2010 to September 2011, 
he served as deputy assistant administrator for the Bureau For 
Democracy, Conflict and Humanitarian Assistance, and acting 
director of the Office of U.S. Foreign Disaster Assistance at 
USAID. Mr. Ward was the special advisor on development to the 
head of the United Nations mission in Afghanistan based in 
Kabul, from October 2008 until July 2010.
    And we welcome all three of you here this afternoon. And as 
you know we have a 5-minute rule and there is a lighting 
system. The yellow light will come on and let you know that you 
have about 1 minute to wrap up. The red light comes on, your 5 
minutes are up and we would appreciate it if you would wrap up 
at or close to that time.
    And we will begin with you Ambassador Feltman. You are 
recognized for 5 minutes.

   STATEMENT OF THE HONORABLE JEFFREY D. FELTMAN, ASSISTANT 
   SECRETARY OF STATE, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Feltman. Mr. Chairman, Ranking Member Ackerman, 
distinguished members of the committee, thanks for inviting us 
to this hearing on this important subject. It is my pleasure to 
be here with my colleague, Mara Rudman, from USAID, and Deputy 
Coordinator for Middle East Transitions, Mark Ward.
    As the committee knows, the Middle East has both immediate 
and long-term strategic interests to our country, so Chairman, 
you outlined some of those interests. Our critical national 
interests include countering violent extremism and Iran's 
destabilizing role, securing Israel and promoting Arab-Israeli 
peace, supporting reform, respect for human rights and 
successful transitions to democracy, and maintaining free flows 
of energy and commerce. Ultimately, each of these affects the 
lives and the livelihoods of Americans and America's friends 
abroad. Already we face new realities in Egypt, Tunisia, Libya 
and elsewhere. At the same time, every country in the region is 
affected by the same powerful forces. This means, in part, that 
parties rooted in religious faith will play larger roles.
    We do not yet know how our relationships will evolve with 
emerging governments, Parliaments and civil societies in these 
countries, and this presents a challenge for budgeting into an 
uncertain future. But what we do know is that our core national 
interests have not changed, while the environment in which we 
pursue them is changing dramatically. And we need to respond 
accordingly by establishing new partnerships while maintaining 
old ones, positioning ourselves to protect and promote our 
interests and help shape and influence outcomes. In this 
rapidly changing environment this requires patience, creativity 
and flexibility, and our ability to succeed will depend on your 
support.
    When we observe new parties coming to power we hear many of 
their leaders saying the right things. But President Obama and 
Secretary Clinton have been crystal clear that the United 
States will judge these parties based not on their words, but 
on their actions and whether they uphold their commitments to 
promoting peace, to the democratic rules of the game and to the 
rights of minority communities and women.
    During this historic period of transition, the United 
States Government is faced, as Mr. Connolly said, with a clear 
choice. On the one hand we could disengage and wait and see 
what happens. On the other hand we could engage proactively and 
seek to shape outcomes that are more favorable to our interests 
and to our friends and start building today the foundations for 
renewed sustainable partnerships. I understand the temptation 
to wait to deliver assistance until we are certain of what will 
happen, but that is a recipe for diminished influence. We are 
not just a bystander in this drama nor do I believe we can 
afford to act that part. We have to make the investments that 
allow us to support our interests and values at a time when 
many of the old arrangements are giving or changing way. Should 
we step back, others who do not share our values stand ready to 
try to fill the void. Our forward-leaning engagement helping 
the region meet its challenges through partnership is one of 
the best bulwarks we have against Iranian ambitions to dominate 
the region.
    A key element of our policy response is the proposal to 
create the Middle East and North African Incentive Fund. With 
your support, this proposal would provide the means to 
incentivize the far-reaching reforms that are needed to achieve 
regional security and fulfill the legitimate aspirations held 
by the region's people. Lack of these reforms will continue to 
undermine our interests across the board. Recognizing the 
magnitude of these issues, the MENA Incentive Fund represents a 
new approach for our engagement. Its structure bolsters 
reformers within these governments and societies. It ties 
substantial assistance to robust and credible reform agendas 
developed in partnership with governments and their civil 
societies linked to achieving transparent benchmarks. Simply 
put, this tool both in its size and its flexibility is badly 
needed to protect our interests and build successful 
partnerships with a region in transition. Throughout this 
process we will actively include Congress in our discussions.
    We have a lot on our plate. To protect our enduring 
interests we must ensure that the root causes of the upheavals 
of the past year, from Tunisia to Syria, are answered by the 
emergence of greater freedom, greater dignity, greater 
opportunity in a region that has seen too little for too long. 
This is a future that is essential to the interests of the 
people of the region and to the United States. Thank you for 
your consideration and your cooperation as we pursue these 
critical goals.
    [The prepared statement of Mr. Feltman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Ambassador, and also I 
would note perfect timing as far as keeping within the limits. 
Excellent, and good testimony as well.
    Ms. Rudman, you are recognized for 5 minutes. Thank you.

STATEMENT OF THE HONORABLE MARA RUDMAN, ASSISTANT ADMINISTRATOR 
   FOR THE MIDDLE EAST BUREAU, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Rudman. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Ackerman and members of the subcommittee, thank you for 
the opportunity to discuss our Fiscal Year 2013 budget.
    We see in the Middle East a region of great hope and 
opportunity but also one facing daunting challenges. USAID's 
assistance, as part of a broader, coordinated U.S. Government 
effort not only delivers on America's values but also 
constitutes an investment in the safety, security and 
prosperity of this critically important region.
    USAID's development experience allows us to address the 
basics that fueled the Arab Spring, people's desire for 
improved opportunities today and a better tomorrow for 
themselves and their children. We are responding to these 
aspirations and needs by providing assistance that helps 
citizens engage with their governments, and helps governments 
respond to the will of their people.
    Our Fiscal Year 2013 budget priorities work to ensure that 
democracies everywhere share some crucial traits including a 
robust civil society, healthy institutions and legal frameworks 
that protect the basic rights of all citizens no matter their 
gender, religion or class. We are reaching out to new 
audiences, new partners, to more young people and increasing 
numbers of women, and to areas well beyond capital cities. 
Young people in these countries, women and men, want to 
participate in the economic as well as political future of 
their societies.
    We have recognized the need to be more agile and flexible 
in our approach. As we do so, we continue to rely on our core 
strengths, knowledge of the societies in which we work, 
experience in political and economic transitions worldwide, and 
a dedicated team of Americans and local staff working to help 
people who are struggling to make a better life.
    Our budget request for Fiscal Year 2013 in the region is 
$1.4 billion, the MENA IF request is on top of that. Countries 
in the region contend with similar development challenges that 
are coming from different places in terms of their recent 
political history, so the nature of our approach and our 
assistance differs. In countries that are experiencing violent 
unrest, such as Syria, USAID as part of a coordinated U.S. 
Government effort has stepped in to provide vital humanitarian 
assistance.
    In Egypt, Tunisia and Yemen, each experienced its own 
unique transition. USAID has provided varying types of support 
for economic growth in civil society work. Still other 
countries in the region are experiencing quieter 
transformations. Morocco and Jordan are moving forward with 
reforms to enhance citizen participation and voice in 
government as well as to create opportunities for the future.
    In Lebanon, USAID is supporting development of economic 
opportunities, supporting civil society and citizen engagement 
and contributing substantially in the education sector where we 
support programs for meritorious youth from underserved areas.
    In Iraq, in Fiscal Year 2013, USAID's focus is on helping 
Iraqis use their own resources to build a self-reliant country 
by continuing support for the development of governing 
institutions at all levels and working with civil society 
organizations including to assist vulnerable populations to 
assert their rights and entitlements.
    In the West Bank in Gaza, the United States' goal is to 
achieve comprehensive and lasting peace. We seek to 
operationalize this through two tracks. Negotiations to 
establish a Palestinian state, and support for Palestinian 
institution building, so that the new state has the capacity to 
govern and to help ensure security, stability and needed 
services. USAID's work is critical to implement this second 
track.
    USAID coordinates closely with our colleagues at State to 
design and support effective programs. We will work with our 
State colleagues and those at other government agencies on the 
$770 million Middle East and North African Incentive Fund, the 
MENA IF, which Assistant Secretary Feltman has discussed and is 
proposed in the President's Fiscal Year 2013 budget. This fund, 
which is designed in part to reward those governments with the 
political will to commit to economic and political reforms that 
will support democratic change, building effective institutions 
and broad-based economic growth, is critical for our ability to 
work throughout the region and we welcome questions on it. New 
programs like the MENA IF leverage the remarkable recent 
transformation that has occurred in the region.
    The storyline in the Middle East is continuing to evolve, 
no doubt about it, but it is clear that the future of the 
Middle East is firmly in the hands and the hearts of people in 
the region. I am confident that the President's Fiscal Year 
2013 budget, including the investments we have proposed, lays 
the groundwork for USAID and our fellow agencies to address the 
challenges and advance the beneficial change we have begun to 
see in the region.
    We all appreciate the opportunity to appear before you 
today and we are happy to answer your questions. Thank you.
    [The prepared statement of Ms. Rudman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Ward, you are recognized for 5 minutes.

  STATEMENT OF MR. MARK WARD, DEPUTY SPECIAL COORDINATOR FOR 
       MIDDLE EAST TRANSITIONS, U.S. DEPARTMENT OF STATE

    Mr. Ward. No statement, Mr. Chairman.
    Mr. Chabot. Okay, thank you. All right, we will move on to 
questions at this time, and I recognize myself for 5 minutes 
for that purpose. And I will open this to any of the folks who 
would like to address it.
    It has been 6 weeks, approximately, since the Obama 
administration granted Egypt its full $1.3 billion in annual 
military aid, despite the Egyptian Government's failure to meet 
conditions set by Congress for advancing democracy. In granting 
a waiver on national security grounds, administration officials 
argued that continuing the funding was more likely to encourage 
cooperation with the United States and progress on human rights 
than a cutoff would. But in a number of tangible ways, U.S.-
Egyptian relations and the military's treatment of civil 
society have deteriorated since the waiver was issued back on 
March 23rd. The threat to nongovernmental organizations whose 
prosecution triggered the threat of an aid suspension has 
arguably worsened. Furthermore, Egypt's Government-controlled 
press has continued a toxic campaign of anti-Americanism.
    The State Department also argued that aid should continue 
because Egypt had stuck to the 1979 Camp David agreements with 
Israel. But after the waiver, the government unilaterally 
cancelled a deal under which it was supplying Israel with 
natural gas, for example. Given all of these deteriorations, 
was granting Egypt's military assistance through a national 
security waiver a mistake or not? And also, has the U.S. lost 
its leverage to push for democracy in Egypt through its 
military rulers, and what damage has this done, if any, in U.S. 
credibility in promoting democracy in the region?
    And Ambassador Feltman, I would start with you but anybody 
else who wants to respond is welcome to do so.
    Mr. Feltman. Mr. Chairman, thanks for the question. It is 
an extremely important topic that was subject to a lot of 
discussion. Inside the U.S. Government what was the best 
approach given the options on the table?
    When you look at Egypt in the macro sense, I think you can 
see a lot of progress that has taken place over the past 1.5 
years. There have certainly been problems. You have outlined 
many of them very eloquently. But we have also seen a country 
that has had multiple rounds for parliamentary elections that 
have been free and fair. You have had a military government 
that has as recently as this week reiterated its commitment to 
turn over power to civilian authorities by July 1st.
    This is not business as usual in Egypt, anything but that. 
You have a transition that is underway, warts and all, moving 
forward toward that transfer back to civilian authority. The 
Egyptian military is going to be one of our partners in Egypt 
moving forward. I mentioned in my opening statement we need to 
be nurturing new partnerships, we need to be cultivating old 
partnerships and Egypt is a good example. Egypt is critical to 
our national security interests. Whether it comes to arms 
smuggling, counterterrorism, Suez Canal, overflight issues, it 
is a key element to regional stability.
    You mentioned the Camp David Accords. Egypt maintains its 
commitments to the Camp David Accords, and Egypt has made 
remarkable progress toward transition. This was the right 
decision that the Secretary made in offering the waiver. It 
doesn't mean that everything in Egypt has been going perfectly, 
but in a very broad sense you have had much more progress 
toward democratic rule in Egypt in the past 1.5 years than you 
had in 60 years, and that progress continues.
    Mr. Chabot. Then just a couple of things, and you did 
mention these, I would ask you to comment on those. One thing, 
the threat to nongovernmental entities that has continued on a 
course that we certainly don't think is particularly helpful, 
and then the campaign in the media there of ongoing anti-
American rhetoric that has been ramped up and ramped up. And 
then of course you mentioned, yes, that Camp David Accords are 
still in existence, but when they cut off something as 
important as the natural gas supply to Israel, it certainly 
seems inconsistent with the spirit of the agreement. So could 
you comment on those three specifically?
    Mr. Feltman. Yes. One reason why the Secretary waived 
rather than certified was because the freedom of association 
has had some good news and some bad news. The good news is that 
there are many more NGOs local, Egyptian NGOs operating at all 
levels across the country now. There is much more freedom for 
association than there was 2, 3, 4 years ago in Egypt today.
    But there are still severe restrictions on some NGOs. We 
want the case against the American, German and other NGOs that 
is still underway to be dropped. And so the Secretary had 
waived the certification on the right of association because of 
the continuing restrictions, but there has been a lot of 
progress made. On the media there are many more free media 
options available to Egyptians now than there were a few years 
ago. There has been progress, but you are right, there is still 
state-controlled media that is putting out the sort of articles 
that do trouble us, and there is still some crackdown on 
bloggers and independent media. So it is another mixed bag, the 
reason why it goes to certification.
    On the gas, Sinai gas, both sides have told us, the 
Egyptians and the Israelis have both told us this is a 
commercial dispute at this point and that they wish to resolve 
this through commercial negotiations, through commercial means, 
and that they would prefer that we not raise this as an issue 
at the political level because both sides are interpreting it 
as a commercial issue.
    Mr. Chabot. Thank you. My time has actually expired so I am 
going to at this point yield to the gentleman from New York, 
Ranking Member, for 5 minutes.
    Mr. Ackerman. Thank you, Mr. Chairman. The region is beset 
with change. I think if you read the rollcall of nations within 
the region, everybody seems to be undergoing some kind of 
pressure, few of them are minor. Most of them are huge. Most of 
them have a dimension of tremendous uncertainty. Some of them 
have changed national leaders, some of whom who have left, some 
of whom are on trial, some of whom are still there but we are 
trying to push out. Some of whom have governments that are 
incapable of governing. Some of them will have a government 
that is completely strange and unknown to us. Most of them seem 
to be having parties and candidates arise that were on our 
this-can-never-happen list, and on this-can-never-happen list 
of those people who are even in that country.
    My question is, with all of this happening at the same time 
have we added any bodies or personnel to your agency, or any of 
our agencies, to deal with these additional problems which are 
on top of all the problems we have historically had, or do we 
just move people around and give people additional 
responsibilities who have been overburdened since the beginning 
of time?
    Mr. Feltman. On the other side of Mara Rudman sits Mark 
Ward. He represents an entirely new office in the State 
Department, the Office of Middle East Transitions headed by 
Ambassador Bill Taylor who is currently, I believe, in Tunisia. 
And this is an office that was set up to address the very issue 
that you said, that we needed to have a unit in the United 
States Government that could look at these countries in 
transitions, now it is Egypt, Libya and Tunisia fall under this 
office, and see, are we doing everything in our power----
    Mr. Ackerman. Let me rephrase the question.
    Mr. Feltman [continuing]. For the most successful 
transition?
    Mr. Ackerman. In addition to adding real estate or square 
footage in the form of an office, have we added additional 
people or have we moved other people around, or is this office 
or its furniture supposed to help solve the problem?
    Ms. Rudman. We have done a few different things in the 
field. We have used, for example, the additional DLIs, and I am 
trying to remember what those initials stand for at the Agency 
for International Development. A new group of young personnel 
that have come into the agency over the last several years that 
have restored a lot of our staff strength.
    So if you are asking have they been added specifically with 
the Middle East Transition, no, but have they given us a new 
group of people that can come out and help us out in the field, 
yes. In addition to that, in Tunisia and in Libya, we at USAID 
have put people into the field in temporary positions at this 
point to help to do more of the assistance work that is going 
on there, in very small numbers, but we have additional people 
in those two countries as well with our Office of Transition 
initiative staff more specifically assigned.
    Mr. Ackerman. I am just unclear. You specifically said new 
young people. One might suspect that we need some senior 
thinkers rather than, I have the interns in my office, I think 
I will put them on this that week. I know Mr. Ward has been 
around for a long time and he has given some very useful 
testimony over the years to our committee. But are we just 
moving personnel around or have we actually increased the 
number of people, experienced people? Have we drawn from other 
sectors? Judging from the answers so far, it seems that we are 
trying to justify why we haven't rather than just saying, we 
haven't and we don't have the resources or the finances to add 
bodies.
    Ms. Rudman. We are working within our existing resources, 
and Mr. Ward can speak to this as well. He can also explain----
    Mr. Ackerman. Working within our resources means we haven't 
added anybody. We have moved people around.
    Ms. Rudman. Correct. But also Mr. Ward can explain the DLI 
program as well, because that is, in fact----
    Mr. Ackerman. Besides adding initials what does it mean? 
What is DLI?
    Mr. Ward. It is new foreign services officers at USAID, 
Development Leadership Initiative, I think. What I was 25 years 
ago.
    Mr. Ackerman. So we have had that program for 25 years. We 
have added nobody because of this problem or because of this 
additional challenge.
    Mr. Ward. What we have done, Congressman, is for example, 
my boss, Ambassador Bill Taylor. Bill was retired. We brought 
him back. I was working in a completely different bureau at 
USAID, not working on the Middle East, and I was brought to 
focus just on this. As Ms. Rudman said, we have created new 
positions in Tunisia and in Libya and staffed them up with a 
mixture of junior officers but also senior officers.
    Mr. Ackerman. But not new officers.
    Mr. Ward. Not new, but you don't want----
    Mr. Ackerman. Our chairman has been very generous. I am now 
53 seconds above my 5 minutes when a no would have been 
sufficient and I would have got the point.
    Mr. Ward. But just so you know, for example, the senior 
USAID officer in Tripoli is one of the most senior officers 
that USAID has.
    Mr. Ackerman. But he was doing something else before that 
is my point. We have moved persons around, we have not added. 
We have not said we need another 12 bodies rather than say I 
will take three bodies from here and eight bodies from here.
    Mr. Chabot. The gentleman's time has expired, but go ahead 
if you can briefly answer it, Mr. Ambassador.
    Mr. Feltman. Very briefly, in terms of the State Department 
we have been able to add a handful of new positions, but for 
the most part it has been shifting, looking at what the 
priorities are, seeing where do we really need surge capacity 
because of these transitions. So we have been able to respond 
but it has mostly been in-house.
    Mr. Chabot. And the gentleman's time has expired. The 
gentleman from Nebraska is recognized for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman. Given Mr. 
Ackerman's question I was actually reflecting fondly on our 
first meeting, Mr. Ambassador, I don't know if you recall this, 
in the room at the Beirut Airport where you were effectively 
trapped for a very long time in that country. So in that regard 
I think it is worth noting that your background and commitment 
to this region provides a deep reservoir of experience as we 
are going through very complex changes here. So I am grateful 
for your service in that regard and the continuity that you 
have provided.
    Let me ask a couple of broad questions here. What happened 
to the Green Movement in Iran?
    Mr. Feltman. As I think you know, the two leaders of the 
Green Movement have been under house arrest since February 
2011. And sort of second tier Green Movement leaders have been 
harassed, in some cases they have left the country. So there is 
no new leadership that has emerged to give the Green Movement 
real direction. The Green Movement still exists. You still see 
examples of protests across the country. But the sort of 
leadership function hasn't yet been filled after the house 
arrest of the top two and the harassment of the second two.
    What we have been trying to do, Congressman, is continue to 
use the programs that we have available to provide tools to 
civil society inside of Iran so that they can organize, try to 
penetrate that electronic iron curtain that the Iranian regime 
has tried to put around the country, to get information that 
can hold the government accountable. So we have continued to 
try to provide tools to civil society actors with the idea that 
at some point new leadership will emerge that will have better 
access, information, technology because of the programs that we 
are running.
    Mr. Chabot. Would you----
    Mr. Fortenberry. Go for a moment? Sure, Mr. Chairman.
    Mr. Chabot. I would just note for the record that I had an 
in-depth conversation with a top Middle East head of government 
not too long ago and this very topic came up. And he indicated 
to me that the Iranian Government had filmed all this stuff 
that was going on and they are systematically arresting and 
eliminating not only the individuals involved, but oftentimes 
entire families are wiped out. That is what the Iranian 
Government is up to in that most reprehensible government that 
now governs Iran.
    And I yield back. Thank you, gentleman, for yielding.
    Mr. Fortenberry. It certainly is a sad and difficult 
situation and there were a lot of courageous people who came 
forward and are still under persecution. It is our hope though 
that in making such commentary like this that there are 
responsible people throughout the world who are looking at the 
possibility of more rational players in Iran coming forward.
    As perhaps a part of a convergence that could change the 
situation, and in this regard I want to talk about the economic 
sanctions and how potentially effective they are. There is a 
quote out of Iran recently that someone said, the soup is so 
salty that even a cook cannot taste it. In other words, some of 
these sanctions are beginning to potentially affect even the 
elites in Iran.
    Do you think that that is true that the effective 
pressures, if you will, on even basic commodity prices are 
lending themselves to the strengthening of potential new 
players who could come along and provide more rational outcomes 
for that situation in terms of new leadership in the future or 
are we still in just a wait-and-see period?
    Mr. Feltman. I certainly would agree with the comment that 
these sanctions are having an impact, and they are focusing the 
Iranian regime on the sanctions in a different way. The Iranian 
regime used to sort of boast that sanctions actually 
strengthened Iran that who cares about sanctions, we can do it 
all ourselves. That is not the case anymore. It is clear that 
the Iranian regime is looking at these sanctions and are very, 
very seriously concerned. And let us remember that the real 
impact of these sanctions, even the current round of sanctions, 
won't hit until July when the existing oil contracts in Europe 
are suspended. So the soup is already salty even to the cook. 
It is going to become almost pure sea salt come July when these 
oil sanctions continue to hit.
    Mr. Fortenberry. Will this reempower the potential 
engagement of new leadership in Iran that would capture the 
will of the people and bring about the potential for more 
rational players who can take a more responsible role in the 
geopolitical scene in the Middle East and on the international 
stage?
    Mr. Feltman. I don't know at this point how long this is 
going to take, but what is clear is that all the countries that 
are talking to the Iranians, whether it is countries that still 
have relationships with Iran, whether it is countries like us 
using new media to get messages in, we are making it clear to 
the Iranian people that the reason why these hardships are 
there, the reason why these sanctions are there are because of 
the decisions that their own government leaders are taking.
    Mr. Fortenberry. Thank you. Thank you, Mr. Chair.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Virginia is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Ms. Rudman, speaking of civil society, when I was in Egypt 
I met with the Egyptian and other representatives of the NGOs, 
and there is great concern in Egyptian civil society that the 
United States having successfully evacuated its own personnel, 
who are employees of these NGOs, we will abandon the Egyptians 
left behind who we hired and an implicit commitment that we 
will stand by them. They are still being arraigned. They are 
still being hauled before a cage in a courtroom. These are 
bright, young, educated people with passion who are trying to 
remake Egypt into a much more inclusive and participatory kind 
of society, with our encouragement, and they have been labeled 
as foreign agents and subject to the tender loving mercies of 
Egyptian justice.
    What is the position of the United States Government, and I 
can ask you that too, Ambassador Feltman, and what are we doing 
to protect these young people, and what are we doing by way of 
representation to the Egyptian Government that it is not okay 
and that we will not abandon these young people? And I believe 
USAID funds these NGOs, doesn't it?
    Ms. Rudman. We will both respond to the question but I will 
let Mr. Feltman respond first and then I will.
    Mr. Connolly. Okay, Mr. Ambassador?
    Mr. Feltman. The Egyptian Government should drop all 
charges against these NGOs.
    Mr. Connolly. Should.
    Mr. Feltman. Should drop all charges against these NGOs. 
They should have dropped all charges months ago against these 
NGOs, both the American NGOs and the others, German and 
Egyptian NGOs. We continue to provide legal advice. We have 
sent lawyers to Egypt to consult with the counsel for the 
defendants to provide information, advice. We have allowed them 
to use some of our own funding in order to pay legal bills. We 
continue to engage the Egyptians at all levels on this case.
    And I would note of course that we went to bat with 
Interpol. When the Egyptians asked Interpol to put out red 
notices to demand the arrest of 15 NGO workers, including 12 
Americans, we immediately engaged with Interpol. Interpol 
agreed that this was a politically motivated case. They did not 
disseminate the red notices as requested by the Government of 
Egypt. The Government of Egypt should take its cue from 
Interpol's decision and drop these charges now.
    Ms. Rudman. The work that we are doing we are doing 
together, State and USAID. So that you are absolutely right, 
Congressman, we are funding all of these organizations. We are 
funding a great deal of the legal work that is going on, and 
our lawyers, State and USAID lawyers are working hand in hand 
together in Cairo as well as back here in Washington continuing 
to provide the ongoing legal advice as well as in our 
communications with the Government of Egypt.
    Mr. Connolly. Well, let me just say based on my own 
meetings with Egyptian officials including at the highest level 
of the Egyptian military, until and unless the United States 
makes it painfully clear to them that this is of the highest 
order of magnitude to us and that this will affect bilateral 
relations including the release and flow of aid money to the 
military and to the economy, that it will injure our working 
relationship going forward. That it will affect attitudes 
certainly here in the Congress. I am concerned that to them it 
seems like a second tier issue that will fade in our attention. 
And I would suggest that the consequences of that are very 
serious, because I can assure you on both sides of the aisle in 
this Congress we are not going to let them go, and if necessary 
we will take legislative action to make that point painfully 
clear to the administration as well as to the Egyptian 
Government. But more importantly it has a cascading effect. You 
have already seen it in the United Arab Emirates. The signal 
being sent, and I suggest it is being misread, I agree with 
your respective characterizations, but I don't know that that 
has been clearly conveyed to the Egyptian Government or to 
others to our satisfaction. And I urge you strongly to make 
this very clear in all representations to officials of the 
Egyptian Government and the transitional government, it is not 
okay. We won't forget. We will persist and this will have 
consequences.
    Mr. Feltman. Thank you for your words on that. We will use 
those words, Congressman.
    Mr. Connolly. That never occurred to me but feel free. 
Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman yielded back his time. And I 
would like to join the gentleman in his emphasis on this issue 
and just say loudly and clearly, there is bipartisan agreement 
that the Congress is outraged relative to the treatment of the 
NGOs by the Egyptian Government in this matter. And this is 
across the board, and Mr. Connolly and I don't agree on too 
much but this is one thing that we agree on. We would probably 
agree on some other things too, but thank you very much for 
making your point. I appreciate it.
    The gentleman from Florida, Mr. Bilirakis, is recognized 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
again. Again on Egypt, the Coptic Christians make up 10 percent 
of the population, roughly 13 million people, and have 
historically been discriminated against and persecuted by the 
Egyptian Government. Unfortunately this discrimination 
continues and Coptic Christians continue to live as lower class 
citizens.
    What the question is for the entire panel, what priority if 
any has the State Department given to the plight of the Coptic 
Christian community? Does the State Department see the Coptic 
Christian community as an important part of a secure and 
democratic Egypt? Please give me specifics and explain.
    Mr. Feltman. Absolutely, Congressman, we agree with you. In 
fact, it is not just in Egypt. We see religious diversity, the 
role of minorities as being important across the region. It 
plays into our response to the situation in Syria. It informs 
how we have engaged Iraqis on their minority--it is a principle 
that we use across the region, not solely in Egypt.
    In Egypt I had the honor to join Anne Patterson in January 
for Coptic Christmas in Cairo. We went to two different 
services in Cairo in January to show by our physical presence 
the U.S. recognition of the role that Coptic Christians play of 
the importance of religious freedom in Egypt. There have been 
some worrying statements that trouble us coming out of Egypt 
and there have been some more encouraging news. For example, 
there was an anti-discrimination law that was passed in October 
that takes away some of the discriminatory practices that you 
are referring to that we hope can be built upon with the new 
government that comes in after July.
    In addition, Al Azhar University, the primary Sunni Islamic 
theological school globally which is based in Cairo, issued a 
bill of rights, a so-called bill of rights, a few weeks ago 
that included very good language on freedom of religion, 
religion diversity, recognition of the role of the Copts. The 
Egyptian Muslim Brotherhood has signed on to that bill of 
rights. This is not enough. In particular, we are concerned 
about the lack of accountability in cases of sectarian 
violence. There have been horrible cases of sectarian violence 
in Egypt throughout this transition, and we have seen very 
little examples of accountability. We are pressing the 
Egyptians for the accountability needed to send a very strong 
message that acts of discrimination, sectarian violence will 
not be tolerated.
    But we are already engaged with the current leadership of 
Egypt as well as the incoming presumed leaders, the members of 
Parliament, the members of these emerging political blocs, 
about the principles that should guide any healthy democracy 
worldwide, the practices that any healthy democracy take in 
order to ensure freedom of religion, religion diversity, 
protection of vulnerable minorities, promotion of the role of 
women, all of these things. We are engaged on this. They are 
top priorities, sir.
    Mr. Bilirakis. Yes, please.
    Ms. Rudman. And I would just add to that jumping off from 
what the Assistant Secretary said. In our programs with the 
problem that we have had a tremendous receptiveness from them, 
tremendous response from across the Parliament in terms of 
their willingness and interest in engaging in precisely the 
types of programming that the Assistant Secretary has 
described. In addition to that specifically on projects 
supporting religious freedom and tolerance, we have a project 
that works with media outlets to broadcast messages that reject 
extremism and violence and encourage positive dialogue between 
Muslims and Christians. We have a project that works with 
educators to disseminate information that is related 
specifically to tolerance and pluralism and peacebuilding 
within communities and is directed toward encouraging that 
dealing with vulnerable communities. So those are targeted to 
the challenges that you are describing with the Coptic 
Christian communities and working to draw out the challenges 
that those communities are facing.
    And so we are trying very hard to make sure that we have 
programming that is working to help those communities as well 
as looking at programming more broadly that ensures that the 
concerns of those communities are being dealt with as we are 
working more broadly across.
    Mr. Bilirakis. Thank you. I too have concerns along with my 
colleagues with the release of this aid to Egypt without 
restrictions or conditions. How does State plan to measure 
moving forward the benefits of releasing this aid to Egypt?
    Mr. Chabot. The gentleman's time has expired but you are 
free to answer the question if you would like.
    Mr. Feltman. Let me emphasize, Congressman, that first of 
all, we exercise control over these funds at all times during 
the process. These funds, of course, are expended to pay for 
goods and services procured in the United States as part of our 
military partnership with Egypt. But we have retained control 
over these funds at all times. That allows us to make any 
adjustments for any significant setbacks that could occur.
    But we have confidence that the military is serious when 
the military says they are going to turn over the reins of 
government to civilian authorities by July. And that is a 
pretty significant step on the part of the military.
    Mr. Bilirakis. How much has the--Mr. Chairman, can I ask a 
quick question?
    Mr. Chabot. The gentleman is yielded an additional minute.
    Mr. Bilirakis. Well, I just want to say, how much of the 
aid has been released so far? Do you intend to release it in 
increments just like the Congress intended? How much has been 
released thus far?
    Mr. Feltman. All of the FMF, Congressman, is in a Federal 
Reserve account over which we retain control. So we retain 
control over those funds, but all those funds are in a Federal 
Reserve account from which they can be drawn down for the 
Egyptian military program.
    Mr. Bilirakis. Anyone else want to add to that?
    Thank you very much, Mr. Chairman. I appreciate giving me 
the additional time.
    Mr. Chabot. Thank you. Absolutely, yes, but the gentleman's 
time has expired.
    Mr. Bilirakis. I yield back.
    Mr. Chabot. Thank you. We will go to a second round at this 
time, and I will yield myself 5 minutes.
    Ambassador Feltman, we know that approximately 12,000 
people, it may be more than that but that is the figures that 
we have been using, have died at the hands of the Syrian 
Government in recent months. You noted in your testimony that 
U.N. Ambassador Rice has said that we will work to ensure that 
there are consequences if the Syrian regime continues to ignore 
the U.N. Security Council's position on these matters and 
continues its murderous assaults on their own population.
    What kind of consequences are we talking about and what 
further atrocities have to be committed before these 
consequences are triggered?
    Mr. Feltman. Mr. Chairman, we all would like to see the 
Annan mission succeed obviously and stopping the violence and 
leading to a political transition. But all of our skepticism 
is, I think, quite warranted when you see the Bashar al-Assad 
not taking the steps needed to make that mission a success. But 
we are not stopping and simply waiting and watching while Kofi 
Annan tries to deploy his monitors. We right now are working on 
an accountability initiative where we are training people 
within our national partners, other countries and expert NGOs, 
on how to gather evidence, preserve evidence, save evidence 
that can be used for prosecution and for later accountability 
against regime figures who are committing atrocities. 
Accountability is one pillar we are continuing to push on in 
reference to your question.
    We are also increasing, frankly, our assistance to the 
opposition, our nonlethal assistance to nonlethal opposition, 
primarily communication equipment. It is not really a 
coincidence, Mr. Chairman, that so much more imagery is coming 
out of Syria today about what is, that the opposition is able 
to tell its story about what they are facing. It is not really 
a coincidence, and some of those can be discussed better in a 
different setting.
    We are also working internationally to increase the 
effectiveness of the sanctions regime, because we do not have a 
Chapter Seven resolution from the United Nations because some 
countries have blocked that. But what we do have is a lot of 
like-minded countries who have economic influence on Syria, and 
we are working together to make sure that our individual 
bilateral sanctions are coordinated to have a greater impact as 
a whole. We are continuing to do that. We are not waiting for 
Kofi Annan's mission to succeed or fail.
    And finally, we are continuing to address the humanitarian 
situation in Syria. The United States has now committed over 
$33 million to help those inside Syria as well as in 
neighboring countries in need of help. So we are continuing to 
work on accountability, on opposition support, on the pressure 
and isolation through sanctions, and on humanitarian, even 
while we would like to see the Annan mission succeed.
    Mr. Chabot. All right. I have 2 minutes left. Let me shift 
to Iraq. Since its inception, the Iraqi Police Development 
Program, the PDP, has regrettably been plagued by mismanagement 
and poor planning. Moreover, senior Iraqi leaders continue to 
express skepticism about its value. In November of last year, 
this subcommittee held a hearing on this very topic, and I am 
disturbed that the State Department still has not formulated 
what I would consider a coherent plan that has Iraqi buy-in.
    The program was originally conceived to be a wide-ranging 
program involving 350 American advisors at 50 field locations 
across Iraq. By July 2011, it was reduced in scope by about a 
half from 350 American advisors down to 190 advisors, and from 
50 field sites down to 28, so just about cut in half. And 
according to the Special Inspector General for Iraq 
Reconstruction, only 86 PDP advisors were in-country as of 
March of this year. Furthermore, the State Department's travel 
warning for Iraq suggests that security restrictions have 
limited the ability of all U.S. personnel to maintain mobility 
within the country which is essential for them to do their 
jobs.
    How effectively can the Iraq Police Development Program 
personnel, and all U.S. Government personnel for that matter, 
execute their mission in the current security environment? Are 
our current aid programs viable in this environment that we see 
in Iraq right now?
    Mr. Connolly. Would the gentleman yield?
    Mr. Chabot. I would be happy to yield.
    Mr. Connolly. I thank the chair. And again I join the chair 
in expressing concern about this. As the chair knows, I have 
raised this in other hearings as well including with the 
Secretary of State when the full committee had her.
    Mr. Chabot. That is correct.
    Mr. Connolly. I would just add, if the chair would allow, 
one additional concern to the chairman's list, and that is, 
there were no metrics. This is a program that had no metrics. 
How in the world can we be investing money in a program that 
has no milestones and no metrics? How can we know whether it is 
efficacious or not? And there were lots of indications from 
SIGIR that there was reason to question whether it was 
efficacious at all. So in your answer to the chairman's 
question, if the chairman will indulge, I would hope you would 
also address that issue as well.
    Mr. Chabot. I thank the gentleman from Virginia for 
expounding upon my question, and take such time as you may 
consume to answer.
    Mr. Feltman. Thank you, Mr. Chairman----
    Mr. Chabot. Within reason.
    Mr. Feltman [continuing]. Congressman. We have just 
performed a semiannual review of the PDP, of the Police 
Development Program in Iraq. And probably some of this can be 
briefed in more detail at a later time, but there were a couple 
of principal findings that came out of the semiannual review. 
First was that in Erbil, up in Iraqi Kurdistan, the program is 
working as intended, as revised downward as you described, some 
of the revised downwards.
    The advisors are able to engage frequently with their Iraqi 
counterparts. They were able to work up plans of work based on 
the Iraqi Kurdistan needs in the forensics area and the needs 
for how to deal nonviolently with civil disturbances, in how to 
staff and make strong an Inspector General's office inside the 
Ministry of Interior. So the semiannual review indicated that 
the Erbil program is going as intended.
    Mr. Chabot. If I could just stop you right there. What 
about in the rest of the country? You have focused on----
    Mr. Feltman. There are three primary findings. The first 
was on Erbil. The second was on Baghdad. In Baghdad it is a 
mixed bag. There has been a very good committee setup between 
the Baghdad police and our police trainers to deal with a lot 
of the emergency security issues, but we have not been able to 
develop the full range of programs and locations that we had 
anticipated even after the reduction.
    The third finding was that in Basrah, in Basrah we are not 
having the access that we had anticipated. In Basrah we have 
more or less concluded to keep the program at a very small 
level. We don't want to pull the program out of Basrah because 
of the importance of Basrah to the commercial development of 
Iraq. It is basically the oil capital. It is also the place 
where Iran is most focused on trying to make inroads.
    Now based on this semiannual review that just came out, we 
will be having further revisions to the program and we will be 
looking at exactly what Congressman Connolly brought up which 
is, how do we measure success in a program that has changed 
quite dramatically since its first conception? You remember 
when we were designing this program at the same time that the 
U.S. military was still there having its police program, its 
security programs, it was all over the country. We now have a 
far different sort of relationship with Iraq than we had then, 
and the program has had to be adjusted based on the discussions 
we had with the Iraqis who, frankly, are quite proud that there 
is civilian Iraqi sovereign control over Iraqi institutions 
now.
    Mr. Chabot. If I can I am going to cut you off there 
because my time is expired long ago. I would just comment that 
I think this committee wants to keep very up on what is 
happening there and I think they have real concerns again in a 
bipartisan manner. And I would now yield 5 minutes to the 
gentleman from New York, Mr. Ackerman.
    Mr. Ackerman. Thank you, Chairman. One of the challenges 
you have is us. It is probably a lot bigger challenge than most 
people realize. One of the concerns I have vis-a-vis the Middle 
East is that there are a number of our colleagues who, in order 
to demonstrate their fealty to the U.S.-Israel relationship, 
will insist that we have a more prudent or a zero approach to 
assistance in other countries in the region thinking that it is 
an either/or situation. That you have to be against other 
countries in order to be for Israel, or that we shouldn't be 
giving money to countries that are not Israel, and to apply all 
sorts of different kinds of tests to the application of that 
kind of assistance that is completely unreasonable, illogical, 
counterproductive and, indeed, very, very often destructive of 
the U.S.-Israel relationship, and not helpful at all to 
Israel's security.
    It is in Israel's national security interest to have a 
neighborhood at peace with it. And some of our colleagues and 
others who are not in Congress, who don't follow this issue as 
closely except just by the bare shadows of it, want to know why 
we would give money to Arab countries at all. Why would we give 
money to places like Egypt? And we hear that at every hearing 
and every meeting in every questioning that is done. Why don't 
we wait and see what is going to happen there? And I don't know 
how long they want to wait, a year, 10 years, 20 years, 50 
years? Who is going to be in the region 50 years from now if we 
are waiting to see?
    It would also seem to me if we are not helpful during these 
very formative moments in the recreation of some of these 
countries that we will have zero influence whatsoever if we 
withdraw the historic and traditional assistance that we have 
been providing, even sometimes without metrics, that suddenly 
becomes withdrawn in the face of a new leadership. My suspicion 
is they will not have a very good feeling about us. My 
suspicion is, I have not actually done it but I would suspect 
that if somebody would take the time to draw a chart of the 
countries that we have the most influence with in the region, 
they are probably the same countries right down the line that 
we give the most assistance to. So I would suspect if that were 
the case, which I think it probably is, that we would come to 
the conclusion that if we want to have more influence we should 
be more involved rather than less involved.
    I don't see the Israelis who are pretty smart players on 
the scene, running around screaming and yelling and opposed to 
assistance to some of their neighbors as I see some of my 
colleagues. Because Israel knows that it is in their best 
interest to have stable governments in those countries.
    To cut people off as they are developing, if you think 
about it as part of your family, you don't want to cut your 
kids off when they are at their most vulnerable. And I am not 
trying to say that other countries in the region should be 
treated as our children because they are not. They are as adult 
as anybody else but they are developing as a nation.
    I don't know how you guys are going to handle that going 
forward, but I would suggest it is one of the most challenging 
problems that we have as a nation and a people and that is, we, 
and I include our colleagues, do not always think. We just have 
reflexive reactions. I don't like what they did in this country 
or that country, let us cut them off. Sure, that is the way to 
get them to love you. That is a way to get them to say hey, 
maybe that is a better way of--no such thing happens.
    I would think that you guys, and I suggest this very 
respectfully, have to stand up to us. We are not shy about 
putting questions to you. But I would suggest that this process 
works a heck of a lot better if we are going to be making 
policy together--and whether some of us are here or some of you 
are here the next time around is not really the question. It is 
really how we do this as a nation, and it has to be a dialogue. 
Turn the questions around. How would you do it? How would we do 
it? It shouldn't be the old Soviet, nyet. You exercise your 
veto and you get no money for that but how are you going to fix 
the problem.
    I know I have left you very little time or no time to 
answer, but if the chairman would indulge maybe somebody would 
like to slap me down.
    Mr. Chabot. Yes?
    Mr. Feltman. Mr. Chairman, may I comment even though it is 
past time?
    Mr. Chabot. Go right ahead.
    Mr. Feltman. Congressman Ackerman, this is the dilemma that 
we----
    Mr. Ackerman. This is why I like this chairman. Not the 
fact that he is chairman because we would be better off if we 
all were the chairmen. But I particularly like this chairman 
because it is more important for him as it is for some of us to 
get the answer rather than to fit it into 60 square seconds.
    Mr. Feltman. This is the dilemma we face, Congressman 
Ackerman, because we have all these interests. We have all 
described these interests that we have. We need to pursue these 
interests. These are our interests in this region that we need 
to be pursuing. And to pursue these it is best to do it an 
atmosphere of stability and security. But we are not going to 
have that stability and security if the questions that the 
Egyptian people, the Tunisian people, the Libyan people, the 
Syrians have raised over the past 1.5 years aren't answered in 
a satisfactory way.
    And that is one reason why we have proposed the Middle East 
and North African Incentive Fund was to give us the sort of 
flexibility that allows us to promote and respond to the type 
of reforms that can have an impact, make a difference and 
restore stability, a real stability, by answering some of the 
questions, the demands that people raised last year. We have a 
lot of strategic, enduring partnerships in this region. Most of 
our assistance budget that comes from the generosity of the 
U.S. taxpayers is tied up in strategic, enduring partnerships 
having to do with the FMF to Israel or commitment to Jordan, 
things like that.
    What we have proposed is that we need a tool, a tool by 
which the United States Government can respond to the 
challenges that the Arab Spring poses for us. We need to 
minimize the risk and maximize the opportunities and we need a 
tool to do that. And that is why we have asked for the types of 
authorities and the levels in the Middle East and North African 
Incentive Fund.
    Mr. Chabot. Thank you, the gentleman's time has expired. 
The chair will recognize himself for 1 minute to make maybe a 
point of personal privilege for those of our colleagues who 
probably fall under the category that the gentleman was 
referring to about not----
    Mr. Ackerman. It is on both sides of the aisle, Mr. 
Chairman.
    Mr. Chabot. Right.
    Mr. Ackerman. It is not a partisan----
    Mr. Chabot. I understand that. I understand that. That is 
why I haven't said Republicans or Democrats or which side of 
the aisle.
    Mr. Ackerman. It is not partisan or sometimes----
    Mr. Chabot. Right. And that is why I said our colleagues, 
because that you have referred to, and I think they reject the 
mindset that no matter what our so-called allies around the 
world do, like Egypt, that there is basically an entitlement to 
U.S. aid in the form of dollars. And it is not necessarily 
involvement, because you had talked about more involvement in 
those regions and that generally means aid. And so we are 
talking about scarce dollars and we have a $16 trillion debt.
    So in the case of Egypt, for example, which is getting a 
substantial amount of money in which Congress puts in, and 
notwithstanding, that you are not getting these dollars unless 
you do this, and then they don't do this, and then the 
administration, we let them make the decision, well, the money 
is going anyway, and that is what happened in this case.
    But anyway, I think a lot of our colleagues reject this 
entitlement mentality that some other countries around the 
world have that they are going to get those dollars no matter 
what they do really, within reason. I mean if they attacked us 
or something, clearly we are not going to give them money, but 
they do with our NGO folks what they did, which was a huge slap 
in the face to the United States.
    We had our Department of Transportation head, who is a 
Republican but was picked by the Obama administration to run 
that department, and it was his son who we happened to meet 
with in Egypt about 1 year ago with a bunch of NGO folks, and 
this guy is basically under house arrest over there and allowed 
to leave the country, so as some Americans were, but there are 
Egyptians and other folks who are our friends who are still 
under great personal threat. And yet the Egyptian Government 
seems to be under the impression that they can do all these 
things and continue to get significant amounts of American aid. 
And a lot of that goes back to their peace agreement which they 
went out on a limb with, with Israel, and so we support Israel 
and we support Egypt too, and we have continued to do that.
    So in any event, in defense of our colleagues who reject 
that mindset that we are going to continue to push tax dollars, 
in the form of, for lack of a better term, foreign aid, 
virtually no matter what they do and no matter how much they 
reject our positions and our policies.
    So I will yield to the gentleman.
    Mr. Ackerman. Thank you. That was very helpful, I think. 
But let me add to that that we can't bite our nose to spite our 
face as they say. Some years ago, I don't remember what the 
year was but there this was this Soviet guy at the time named 
Pavlov. And he was able to train even mice that they get the 
reward if they have certain behavior. They ring a bunch of 
bells around here, we show up at the other side of the maze and 
cast votes, at least 90 percent of the time we get to come back 
here. You can train anybody to do anything. The reason, boldly, 
if I could suggest that we started to give large sums of 
assistance to both Egypt and Jordan was because they both 
signed peace treaties with the Israelis. We rewarded good 
behavior. They got the cheese at the end of that.
    I think we have to be mindful of that as well, and to try 
to describe to some of our friends in the region what we are 
looking for, what our expectations are. We don't necessarily 
know, we know we are not going to get them overnight especially 
when there is a new political player in town, in each of their 
towns, that is going to pander to the populist notions at the 
moment in order to solidify their power bases and to stay in 
power, but they have to understand as they develop that this is 
real life. And we can be helpful or we can be absent, but we 
have to understand when we are absent we pay consequences as 
well, and we have to sit down collectively with our guys on the 
left and on the right in each of our parties and find out what 
our expectations are in each place in the world and with each 
government because they are all different. The Brotherhood 
movement is different in different countries. And figure out as 
it is how much we want to invest, how much time we want to give 
it and to be flexible enough as things to develop that we could 
never predict.
    Mr. Connolly. All right, I am going to get in here, Mr. 
Chairman.
    Mr. Chabot. All right. Are you finished, Mr. Ackerman?
    Mr. Ackerman. I am anxious. The gentleman from the 
Commonwealth----
    Mr. Chabot. Okay. I am going to reclaim my time. And it 
just goes to show you never know what we are going to discuss 
in this committee, things from Pavlov's dog to Pavlov's mice.
    Mr. Ackerman. We don't always get to talk to each other.
    Mr. Chabot. I didn't remember the mice part. I remembered 
the dog part, and I thought it was ringing a bell and feeding 
him something, then he would salivate even at the ringing of 
the bell, but maybe there were mice involved too. It has been a 
long time since I took high school science.
    But I will yield back my time, and the gentleman from 
Virginia is recognized for 5 minutes.
    Mr. Connolly. I thank the chair. And if could just add to 
the conversation, and I think Mr. Ackerman is right. We don't 
often get to do this. And we have had this debate at this 
committee and full committee last summer in our markup, and I 
think it is a fair point to raise the question of, hey, aid 
isn't an entitlement. There has to be accountability. There 
have to be metrics, otherwise it is not worth doing.
    But neither can we afford as a great power, however, to act 
as children. Aid is not a crude cudgel that demands slavish 
devotion to a U.S. agenda at the U.N. or anywhere else, or 
else. Aid is a tool. It is an investment. It has a return on 
it. It doesn't always work, but if you look at things like the 
Camp David Accords, whatever aid we have poured into that 
region, not all of it efficient, not all of it yielding the 
results that are desirable, but the bottom line result is most 
desirable. It is the longest period of time since the creation 
of the State of Israel in which its neighbors did not go to war 
with it. Worth the price.
    Peacekeeping operations, we don't always like U.N. around 
here. Cheap at the price in terms of leveraging other nations 
to help U.S. diplomacy, as well as we hope international 
diplomacy, to keep the peace in troubled places without having 
to have a whole bunch of U.S. troops all over the place. And 
Iraq and Afghanistan are current reminders of what happens when 
that diplomacy and those investments fail, or because we got 
dissatisfied or impatient or juvenile about it and chose to 
withdraw from the field.
    And so I think the chairman raises absolutely legitimate 
concerns. We cannot take the entitlement mentality to the issue 
of deploying U.S., scarce, limited, precious U.S. assets 
anywhere in the world. But on the other hand, we have to have a 
more visionary broader understanding that this is a tool that 
serves us. We need to make sure it is effective. But sometimes 
in our political rhetoric, and I certainly do not mean to 
suggest the chairman--there is one of our colleagues running 
for President who has actually said let us defend all foreign 
aid. Why give it away? My god, we have needs here. It is not an 
either/or proposition for a great country. These are not 
choices that we have to make in terms of either/or, these are 
choices that both need to be made.
    And so I just say that as a word of caution because I 
happen to believe in the efficacy of foreign aid. I know how 
easy it is, and again I do not mean the chairman, for some to 
demagogue the issue because it is not popular foreign aid. But 
if you actually look at its track record, warts and all, it has 
been a strong investment tool for the United States that has 
had, in many cases, profound payoff.
    Let me ask two questions before my time runs out, real 
quickly. I also went to Libya with our colleague, David Dreier, 
in the House Democracy Partnership, and we were there one day. 
We met with the USAID mission director, Ms. Rudman, and doing a 
great job, and we were encouraged, I think, actually by the 
ferment in what we were seeing. The difference, I guess, I 
would characterize, and I wonder what you and Mr. Feltman might 
think, and certainly yourself, Mr. Ward, Libya isn't set yet. 
It is in ferment, not clear where it is going to go. There were 
hopeful signs. There was lots of excitement and enthusiasm 
still. And we are trying to be a worthwhile partner with those 
who would like to put it on a civil society, inclusive, 
participatory kind of democracy over time that respects 
minority rights, et cetera. Egypt, I fear, is more set. 
Political ferment in some ways has settled and it is quite 
clear what has emerged from that and the issue there is, are 
they the real thing or are they going to revert to previous 
form? And if so, we have real problems in the largest Arab 
country in the world.
    I just wonder--I invite you, if the chairman will indulge 
it, because I took an extra minute just to share my views, if 
the chairman will allow our witnesses simply to answer that 
question, and I will then retire from the field.
    Mr. Chabot. Take a minute or so to complete, and the 
committee will be wrapping up then, whoever is most appropriate 
to answer the question. Mr. Ward?
    Mr. Ward. Well, I appreciate the reference, Congressman, to 
Libya. I spent about 4 or 5 months in Libya with the United 
Nations between September and February. And I will tell you 
that one of the most exciting things for the United States 
Embassy, every other international Embassy in town and the 
United Nations, was the excitement in civil society that you 
talk about.
    I remember a day sitting with the Deputy Prime Minister in 
his office where there was a protest raging out on the street. 
And it was so loud we couldn't really have our conversation and 
I expressed some frustration. And he sat back in his chair with 
a big smile and he said, isn't this great? This is the way it 
is supposed to be. Let them carry on. We can go meet down the 
hall.
    And their willingness to invite civil society, which has 
such a voice in ensuring that these transitions continue to go 
in the right direction, to participate in their deliberations, 
to participate as our Government does in creating laws, in 
providing comment, is very encouraging. And we are seeing the 
same hopeful signs next door in Tunisia. But you are right. 
This is something that we are going to have to keep an eye on 
going forward with the new Egyptian Government.
    Mr. Feltman. You mentioned Egypt, Congressman Connolly, and 
I agree. We have a new Egypt emerging and it is an Egypt that 
we don't know, or at least we don't know completely. We may 
never know completely. But it is in our interest to try to see 
if we can build new partnerships with the emerging Egypt as 
well as to maintain our existing partnerships with Egypt, 
business with Egyptian educational institutions, with the 
Egyptian military. Because you look at a map, Egypt is going to 
remain Israel's neighbor. Egypt is going to remain the neighbor 
to Sudan on one side and Libya the other. We have interests 
that transcend Egypt, but that need Egypt to be part of the 
solution. So we are committed to using all of the diplomatic 
tools we have to cultivate new partnerships and protect our old 
partnerships in Egypt.
    Mr. Chabot. The gentleman's time has expired.
    We want to thank the panel for their testimony here this 
afternoon. I think it has been very helpful. Members will have 
5 days to supplement their statements or to ask questions. If 
there is no further business to come before the committee we 
are adjourned. Thank you very much.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
